     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
May 20, 2011



Report Number: A-06-10-00076

Mr. Don Gregory
Medicaid Director
Louisiana Department of Health and Hospitals
P.O. Box 91030
Baton Rouge, LA 70821-9030

Dear Mr. Gregory:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Louisiana Medicaid Inpatient Hospital Family
Planning Services. We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-10-00076 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF LOUISIANA
MEDICAID INPATIENT HOSPITAL
 FAMILY PLANNING SERVICES




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-06-10-00076
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase FMAPs at
any time.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish “… family planning services and
supplies … to individuals of child-bearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and supplies
….” Section 1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize reimbursement at an
enhanced 90-percent Federal reimbursement rate (90-percent rate) for family planning services.

Section 4270 of the CMS State Medicaid Manual states that family planning services include
those that prevent or delay pregnancy, or otherwise control family size, and may also include
infertility treatments. In addition, this provision generally allows the 90-percent rate for the
following items and services: counseling services and patient education; examination and
treatment by medical professionals pursuant to States’ requirements; devices to prevent
conception; and infertility services, including sterilization reversals.

Federal reimbursement at the 90-percent rate is not available for procedures performed for
medical reasons, such as removal of an intrauterine device because of infection. Only items and
procedures clearly furnished or performed for family planning purposes may be reimbursed at
the 90-percent rate.

Louisiana’s Medicaid Program

In Louisiana, the Department of Health and Hospitals (State agency) administers the Medicaid
program and is responsible for reporting expenditures for Federal reimbursement. During the
audit period, from October 1, 2007, through September 30, 2009, the State agency claimed
$5,416,577 ($4,874,919 Federal share) for inpatient hospital family planning services at the 90-
percent rate. The State agency’s FMAP ranged from 72.47 percent to 80.75 percent for claims
paid during that period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency properly claimed reimbursement at the 90-
percent rate for inpatient hospital family planning services.

Scope

Our audit period covered October 1, 2007, through September 30, 2009. Our review included all
claims that the State agency identified as inpatient hospital family planning services. We did not
review the claims in our sample for compliance with Medicaid requirements other than those
related to whether the claims qualified for the 90-percent rate as family planning services.

We did not perform an overall assessment of the State agency’s internal controls for claiming
costs for Federal reimbursement. We limited our review of internal controls to gaining an
understanding of the State agency’s procedures for claiming Federal reimbursement for family
planning services. We performed fieldwork at the State agency in Baton Rouge, Louisiana.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations;

   •    held discussions with State agency officials to ascertain the State’s policies, procedures,
        and methodology for claiming Medicaid reimbursement for family planning services;

   •    obtained and reviewed claims data for inpatient family planning services that were paid
        from October 1, 2007, through September 30, 2009;

   •    reconciled the amounts claimed for Federal reimbursement at the 90-percent rate for
        inpatient family planning services on the Form CMS-64, Quarterly Medicaid Statement
        of Expenditures for the Medical Assistance Program, with claim data;

   •    selected a stratified random sample of 100 claims classified as inpatient hospital family
        planning services that were paid from October 1, 2007, through September 30, 2009,
        from a population of 5,208 such claims (see the Appendix); and

   •    obtained and reviewed the medical records for the sample claims to determine whether
        the services met the requirements for the 90-percent rate.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The State agency generally claimed reimbursement at the 90-percent rate for inpatient hospital
family planning services properly. Of the 100 claims in our sample, 93 claims pertained to family
planning services that were not performed for other medical reasons. However, the remaining
seven claims were not eligible for enhanced reimbursement because they did not contain family
planning services, or the services were performed for other medical reasons. The overpayment
for these seven claims, which is the difference between the amount the State agency claimed at
the 90-percent rate and the amount it should have claimed at the FMAPs that were in effect
during the period under review, was immaterial. Accordingly, this report contains no findings or
recommendations.
APPENDIX
                                                                                      Page 1 of 2


                  APPENDIX: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all inpatient hospital claims for Louisiana Medicaid recipients that
were equal to or greater than $100 and that were paid and subsequently reported on the Form
CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, for
family planning services in Federal fiscal years 2008 and 2009.

SAMPLING FRAME

The sampling frame was an Excel spreadsheet listing 5,208 Medicaid family planning claims.

The State agency provided us with electronic files containing all Medicaid claims classified as
family planning claims that were paid from October 1, 2007, through September 30, 2009. To
determine the sampling frame for this sample, we extracted from the electronic files all the
claims with cost centers associated with inpatient hospital claims. We then removed all the
claims for which Medicaid paid less than $100.

SAMPLE UNIT

The sample unit was a paid claim.

SAMPLE DESIGN

We used a stratified random sample.

Stratum 1:   $100 to $2,999 – 3,066 claims
Stratum 2:   $3,000 to $5,999 – 1,817 claims
Stratum 3:   $6,000 to $50,000 – 316 claims
Stratum 4:   Over $50,000: all male clients, female clients over 55 – 9 claims

SAMPLE SIZE

We selected a sample of 100 claims: 30 claims from Stratum 1, 31 claims from Stratum 2, 30
claims from Stratum 3, and all 9 claims from Stratum 4.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using Office of Inspector General, Office of Audit Services,
statistical software.
                                                                                    Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 30 random
numbers for Stratum 1, 31 for Stratum 2, and 30 for Stratum 3, we selected the corresponding
frame items. We selected all 9 claims in Stratum 4.
